APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM
VISA PLATINUM REWARDS
VISA SIGNATURE
VISA SIGNATURE CASH REBATE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

9.70% to 20.70% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards

11.70% to 22.70%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards

11.99% to 22.99%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Cash Rebate

11.99% to 22.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Platinum
9.70% to 20.70% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
11.70% to 22.70% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards
11.99% to 22.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Cash Rebate
11.99% to 22.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01214565-MXC10-P-1-040120 (MXC101-E)

APR for Cash Advances

Visa Platinum
9.70% to 20.70% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
11.70% to 22.70% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards
11.99% to 22.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Cash Rebate
11.99% to 22.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

Penalty APR and When it Applies

Visa Platinum
None
Visa Platinum Rewards
None
Visa Signature Rewards
None
Visa Signature Cash Rebate

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee - Visa Platinum
- Balance Transfer Fee - Visa Platinum
Rewards, Visa Signature Rewards, Visa
Signature Cash Rebate
- Cash Advance Fee - Visa Platinum
- Cash Advance Fee - Visa Platinum
Rewards, Visa Signature Rewards, Visa
Signature Cash Rebate
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
$5.00 or 3.00% of the amount of each balance transfer, whichever is greater

None
$5.00 or 5.00% of the amount of each cash advance, whichever is greater

1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
SEE NEXT PAGE for more important information about your account.
©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01214565-MXC10-P-1-040120 (MXC101-E)

Effective Date:
The information about the costs of the card described in this application is accurate as of: April 13, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Platinum Rewards, Visa Signature Rewards and Visa Signature
Cash Rebate are secured credit cards. Credit extended under this credit card account is secured by various
personal property and money including, but not limited to: (a) any goods you purchase with this account, (b) any
shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you
have in any individual or joint account with the Credit Union excluding shares in an Individual Retirement
Account or in any other account that would lose special tax treatment under state or federal law, and (d)
collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are six or more days late in making a
payment.
Balance Transfer Fee (Finance Charge) - Visa Platinum Rewards, Visa Signature Rewards, Visa Signature Cash Rebate:
$5.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge) - Visa Platinum Rewards, Visa Signature Rewards, Visa Signature Cash Rebate:
$5.00 or 5.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Statement Copy Fee:
$10.00.
Copy of Visa Draft:
$10.00.
Returned Visa Statement:
$2.00.

©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01214565-MXC10-P-1-040120 (MXC101-E)

